No,

0 °w
IN THE

SUPREME COURT OF THE UNITED STATES

DEREK A. RIVERA-PETITIONER
VS.
CONNIE HORTON, Warden-RESPONDENT
On Petition For Writ of Certiorari To The
United States Court Of Appeals For The Sixth Circuit
f

It

\

\

r

V

Vi .:•!

■

f
y

-

- -»j

PETITION FOR WRIT OF CERTIORARI

FILED
APR 14 2021
M™l!EaDHUBTLusK

Submitted by:
Derek A. Rivera, #967132
Chippewa Correctional Facility
4269 West M-80
Kincheloe, Michigan 49784

NOTICE: This document was prepared with the assistance of a non-attorney prisoner assigned to the Legal Writer
Program with the Michigan Department of Corrections.

QUESTIONS PRESENTED FOR REVIEW
I.

RIVERA WAS DENIED A FAIR TRIAL BY OTHER-ACTS
EVIDENCE THAT HAD NO PROPER PURPOSE AND THUS
ENCOURAGED THE JURY TO CONVICT HIM ON AN IMPROPER
CHARACTER-TO-CONDUCT RATIONALE.

II.

THE TRIAL JUDGE COMMITTED PLAIN ERROR BY
REQUIRING THE DEFENSE EXPERT TO PREPARE A REPORT
AS A PRECONDITION TO TESTIFYING. IN THE ALTERNATIVE,
TRIAL COUNSEL WAS INEFFECTIVE FOR NOT MAKING A
TIMELY OBJECTION.

III.

APPELLANT WAS DENIED HIS FOURTEENTH AMENDMENT
RIGHT TO DUE PROCESS OF LAW WHEN THERE WAS
INSUFFICIENT EVIDENCE TO SUPPORT THE ESSENTIAL
ELEMENTS OF SECOND-DEGREE MURDER BEYOND A
REASONABLE DOUBT, AND THE TRIAL COURT ABUSED ITS
DISCRETION BY NOT GRANTING APPELLANT’S MOTION FOR
A DIRECTED VERDICT BASED ON THIS ISSUE.

IV.

DEFENSE COUNSEL WAS INEFFECTIVE FOR NOT WAITING
UNTIL AFTER DR. HOROWITZ TESTIFIED BEFORE ASKING
FOR THE DIRECTED VERDICT.

1

LIST OF PARTIES
[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of all parties to
the proceeding in the court whose judgment is the subject of this petition is as follows:

n

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

1

LIST OF PARTIES

11

TABLE OF CONTENTS

111

TABLE OF AUTHORITIES

v

REFERENCE TO OPINIONS BELOW

vi

JURISDICTION

Vll

CONSTITUTIONAL PROVISIONS INVOLVED

vm

STATEMENT OF THE CASE

1

REASONS FOR GRANTING THE WRIT

8

I.

RIVERA WAS DENIED A FAIR TRIAL BY OTHER-ACTS EVIDENCE
THAT HAD NO PROPER PURPOSE AND THUS ENCOURAGED THE
JURY TO CONVICT HIM ON AN IMPROPER CHARACTER-TOCONDUCT RATIONALE.

II.

THE TRIAL JUDGE COMMITTED PLAIN ERROR BY REQUIRING
THE DEFENSE EXPERT TO PREPARE A REPORT AS A
PRECONDITION TO TESTIFYING. IN THE ALTERNATIVE, TRIAL
COUNSEL WAS INEFFECTIVE FOR NOT MAKING A TIMELY
OBJECTION.

III.

APPELLANT WAS DENIED HIS FOURTEENTH AMENDMENT
RIGHT TO DUE PROCESS OF LAW WHEN THERE WAS
INSUFFICIENT EVIDENCE TO SUPPORT THE ESSENTIAL
ELEMENTS OF SECOND-DEGREE MURDER BEYOND A
REASONABLE DOUBT, AND THE TRIAL COURT ABUSED ITS
DISCRETION BY NOT GRANTING APPELLANT’S MOTION FOR A
DIRECTED VERDICT BASED ON THIS ISSUE.

IV.

DEFENSE COUNSEL WAS INEFFECTIVE FOR NOT WAITING UNTIL
AFTER DR. HOROWITZ TESTIFIED BEFORE ASKING FOR THE
DIRECTED VERDICT.

V.

MR. RIVERA IS ENTITLED TO A REVERSAL OF HIS CONVICTION
in

BECAUSE THE CUMULATIVE EFFECT OF THE ERRORS THAT
OCCURRED AT TRIAL DENIED HIM HIS RIGHT TO A FAIR TRIAL
AND CAST DOUBT ON THE RELIABILITY OF THE VERDICT.

CONCLUSION
APPENDICES
APPENDIX A - ORDER - UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT - February 12, 2021
APPENDIX B - OPINION AND ORDER-UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MICHIGAN - September 10, 2020

IV

TABLE OF AUTHORITIES

Cases
Adams v. Smith, 280 F. Supp. 2d. 704, 714 (E.D. Mich. 2003)

Page(s)
13

Brown v. Palmer, 358 F. Supp. 2d. 648

13

Dretke v. Haley, 541 U.S. 386, 395; 124 S. Ct. 1847; 158 L. Ed. 2d 659 (2004)

13

Ege v. Yukins, 485 F.3d 364(6th Cir. 2007)

10

Estelle v. McGuire, 502 U.S. 62 (1991)

10

In re Winship, 397 U.S. 358; 90 S. Ct. 1068; 25 L Ed 2d 368 (1970)

13

Jackson v. Virginia, 443 U.S. 307 (1979)

13

Nash v. Eberlin, 437 F.3d 519 (6th Cir. 2006)

13

Rock v. Arkansas, 486 U.S. 44; 107 S. Ct. 2704; 97 L. Ed. 2d 37 (1987)

15

Scott v. Mitchell, 209 F.3d 854 (6th Cir. 2000)

13

Strickland v Washington, 466 US 668; 104 S Ct 2052; 80 L Ed 2d 674 (1984)

11

v

REFERENCE TO OPINIONS BELOW
People v. Rivera, 2017 Mich. App. LEXIS 1501
Rivera v. Horton, 2020 U.S. Dist. LEXIS 165064
Rivera v. Horton, 2021 U.S. App. LEXIS 4175

vi

JURISDICTION
[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was February 12, 2021.
[X] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of Appeals on the
, and a copy of the order denying rehearing appears
following date:
at Appendix__
[ ] An extension of time to file the petition for a writ of certiorari was granted to and including
(date) on
(date) in Application No. A-

The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).

Vll

CONSTITUTIONAL PROVISIONS INVOLVED

U.S. Const, Am. V
Rights of persons charged with crimes; guaranty of life, liberty and property.
No person shall be held to answer for a capitol, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases arising in the land or naval forces, or
in the militia, when in actual service in time of war or public danger; nor shall any person be
subject for the same offense to be twice put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor deprived of life, liberty, or property, without
due process of law; nor shall private property be taken for public use, without just compensation.
U.S. Const, Am. VI
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein the crime shall have been committed, which district
shall have been previously ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the assistance of counsel for his defense.

U.S. Const, Am. XIV, § 1
All persons bom or naturalized in the United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or property, without due process of law; nor deny to
any person within its jurisdiction the equal protection of the laws.

vm

STATEMENT OF THE CASE

Petitioner Derek Rivera and the decedent, Terry Alber, were homeless men who slept at
night in a shack near a Volunteers of America building in Lansing, Michigan. One day they
fought. Rivera won. Rivera later went to sleep. Alber stayed up for a while, drinking, before he
too fell asleep. In the middle of the night he got up, perhaps to urinate, stumbled, and fell. He hit
his head against a cinder block and died.
Derek Rivera's murder trial focused on causation. The prosecution's theory was that
when Alber stumbled and fell, he was succumbing to injuries already inflicted by Rivera. The
defense theory was that the death was accidental. Each side presented experts in support of its
theory.
Mr. Rivera now argues that the lower court denied him a fair trial by allowing, over his
objection, the prosecution to present evidence from two witnesses that he had acted violently
toward them on other occasions, though such evidence had no purpose other than to encourage
the jury to infer guilt from bad character.
Mr. Rivera further argues that the judge plainly erred by requiring the defense expert
(a pathologist hired by the defense at the last minute because the judge refused to adjourn the
trial to accommodate the schedule of the defense's preferred expert) to prepare a report as a
precondition to testifying. The error was prejudicial because the prosecution seized on perceived
inadequacies in the hastily prepared report as reason to question the expert's credibility. In the
alternative, Mr. Rivera argues that his trial lawyer was ineffective for not timely objecting to the
judge's erroneous precondition.
On May 4, 2014, at about 10:00 a.m., Thomas Young saw Terry Alber's dead body lying
next to a fire pit near a shack located behind the Volunteers of America building in Lansing. The
1

shack and fire pit were a hangout for drinking. Young had been drinking there for three or four
days, and had seen Terry Alber there, alive.
Now, seeing Alber's slumped body on the ground, Young looked around. There were
three or four other men there, two of them asleep. A third, named Mark, was "awake kind of in
and out from alcohol."

Young asked Mark if Alber was all right. Mark responded that Alber

was dead and had been for ten hours.
Also there at the fire pit were Derek Rivera and Ronnie Noeker. Noeker had blood on his
hands. Young called 9-1-1, and when a police officer arrived led him to Alber's body.
Mark Cobb was at the fire pit when the police arrived. He'd been there the day before, too. That
evening he'd seen a fight between Derek Rivera and Terry Alber. It was a fist fight that lasted
about five minutes. Both men threw punches.

Cobb did not see Alber fall. Nor did he see

Rivera kick or stomp Alber, or hit him with a golf club.
Cobb agreed that he might have told police that Rivera was crazy; that he probably told
them that Alber was afraid of Rivera; that he believed he'd told them that Alber didn't do
anything, just Rivera, who was "pissed"; and that he did tell them that Rivera was the instigator.
Derek Rivera wore a leg brace and crutches, but his injured leg had recovered to the point
that he bragged about being able to move around without the help of either.
Also a witness to the fight was Arthur Devine. He'd been at the homeless camp, drinking.
He didn't know Alber or Rivera—he'd just met them that day. He watched as they had a "small
fist fight." He had the impression it was over "some female. He saw Rivera "throw a couple
blows" to the "head area," but in his view they were "nothing major . . . nothing to cause any
kind of homicide and murder."
Devine acknowledged "probably' telling the police that he didn't want to be seen as a

2

snitch and that he didn't want to mention any names that they could get their "info" from
examining the "clothing, shoes, and knuckles" of the people in the hospital. And when asked by
the police if "Ronnie [Noeker] and [Derek Rivera] beat up Terry and he fell into the bricks," he
"probably" answered that "Ronnie didn't beat up nobody." He also remembered telling the police
that Rivera "hit [Alber] and kicked the fuck out of Ronnie."
Lawrence Fisher was a third witness to the fight. According to him, there were a group of
people at the camp, and all of them were drunk. Terry Alber and Derek Rivera began to argue
about a woman named Mersaides. Rivera wanted to know why Alber had sex with her while
Rivera was in jail. Then Rivera began to hit Alber. He knocked Alber out cold and kept beating
him in the face. When one of the others said "Leave him alone," Rivera threatened to hit the man
with a golf club. There was a golf club there and Fisher had seen Rivera swinging it around,
though he had not seen him hit anyone with it. Fisher decided it was time to leave, and left.
After the fight was over, and Derek Rivera had gone to sleep, Terry Alber and Arthur
Devine stayed up for a couple hours, drinking. Still later, they huddled together under a dirty
tarp and themselves fell asleep. As morning approached—the birds were chirping—Alber got
up, walked a ways, and then stumbled and fell. Devine heard Alber gasp a couple times. After
about 10 minutes, remembering those gasps, he got up to check on Alber. He shook him, but
Alber did not respond.
Devine tried to tell the others their buddy was dead, but they said Alber had probably just
passed out, and told Devine to go back to sleep.
A police officer who photographed Alber's body the next morning noticed that the fly to Alber's
pants was open, but his belt still buckled.
Derek Rivera spoke about the incident to Angela Lewis and to the police. Angela Lewis

3

met Derek Rivera two weeks after Terry Alber died. Formerly homeless herself, she had known
Alber for about a year and a half. At some point, Rivera told her he’d been involved with what
happened to Alber. Fie admitted hitting Alber twice in the knees. He said he thought he would
“have to do seven to ten years for that.” He did not, however, admit to killing Alber. He said,
“Terry fell and hit a rock and busted his melon.”
Another time, in late November 2014, when Lewis and Rivera were out drinking, they
argued. Later, when leaving, he’d told her that if she “ever spoke a word to Detective Looney
about what happened with Terry the same thing would happen to [her].
On December 29, 2014, Detective Looney and Detective Lee McAllister interviewed
Derek Rivera. An audio recording of the interview, which consisted of two sessions, was
admitted in evidence, and played for the jury.
The recording was not transcribed, but its contents were partly described for the record
by Detective McAllister and, in closing argument, by the trial prosecutor. Mr. Rivera admitted
to punching ALber and knocking him down, and then hitting him with the golf club (but not in
the head) and stomping on or kicking his head.
When found the next morning, Terry Alber’s face was “smashed quite closely up against
a [cinder] block”, as if he’d fallen and hit his head on it. The prosecution’s expert was forensic
pathologist John Bechinski, who conducted Terry Alber’s autopsy. Dr. Bechinski acknowledged
the possibility of a “terminal fall” but thought such fall could not account for “the constellation
of injuries” presented by Albers. The autopsy showed Alber had suffered at least nine blows to
the head. He had a broken nose and black eyes, and his face was swollen form what “more than
likely” was “blunt force trauma”. There was bleeding within the scalp and the muscles on the
side of the head. There were also “acute bilateral subdural hematomas”, or tear of the “briding

4

veins” between the dura matter and the surface of the brain. And there was bleeding on the
surface of the brain (or “subarachnoid bleeding,”), as well as a laceration of the mesentry. These
various injuries were not all the result of someone just falling on his face.
In Dr. Bechinski’s opinion, the subdural bleeding and subarachnoid bleeding were the
mechanisms of death. Albers could have lived for minutes and even hours with this bleeding
before dying. Dr. Bechinksi concluded Albers died from “blunt force trauma of the head”
consistent with a fight six hours before his fall into the cinder block.
The defense expert, Dr. Ronald Horowitz, also a pathologist, saw it differently. In his
opinion, Terry Albers died because of blunt force trauma caused when he fell and hit his head on
the cinder block. He did not die and then fall; a bluish-red discoloration over his right eye meant
that he was still alive when his head hit the rock. The blood clot in the back of his head was
related to the injuries to his face caused by the fall. This was a case of a “coupcontrecoup”
closed-head injury. When a moving head hits a fixed object (such as when a person falls and hits
his head on the sidewalk), the injury caused at the point of impact (the “coup” may be less
serious than the damage caused by the jolted brain’s movement within the skull (the
"contrecoup"), which can tear the emissary veins and cause a subdural hematoma.
According to Dr. Horowitz, Terry Alber had suffered just such an injury.

Dr. Horowitz was not the first choice for defense expert. On August 5, 2015, more than a
month before trial, the defense sought funding for its first choice, Dr. Ljubisa J. Dragovic, the
Oakland County Medical Examiner. The judge approved.

The week before trial defense counsel learned that Dr. Dragovic would not be available to testify

5

until September 15, days after the judge expected the trial to finish. The judge refused to grant an
adjournment. Instead, he told counsel to find another expert.
Whether then or on a following day, the judge also informed counsel that the expert must prepare
a report and make it available to the prosecutor.
The defense retained Dr. Horowitz and had him hastily prepare the required report.
According to defense counsel, the report was provided to the prosecutor at 8:00 a.m. the day
after the judge made clear a report was necessary.
Dr. Horowitz was the only defense witness. The prosecution called one rebuttal witness,
Dr. Bechinski. The prosecutor began by asking about Dr. Horowitz's report: "[Clan you tell me
which areas of his report you dispute?" Dr. Bechinski's answer was so long it took four pages to
transcribe. He pointed to matters of "quality assurance." The decedent had not been identified
except by name, for example.

Nor did the report indicate that Dr. Horowitz had reviewed the

microscopic slides of the brain, or the medical examiner's investigative report. The term
"contrecoup" was misused at one point, he thought. The report assumed that the ground under
Terry Alber was uneven which may have contributed to his fall; Dr. Bechinski questioned that
assumption.

He disputed Dr. Horowitz's statement that Alber's advanced liver disease would

have caused a greater risk of bleeding; he did not view the liver disease as advanced. The report
described multiple small contusions on the face; there was bruising as well.
After speaking at length about his own thinking regarding the mechanism of death, Dr.
Bechinski returned to Dr. Horowitz's report. It failed to mention impact sites on the sides and
back of the head. It also failed to mention their significance. Finally, there was no "cause of death
and manner of death" section to the report.
On July 25, 2015, about a month-and-a-half before trial, the prosecution gave notice it

6

intended to introduce other-acts evidence at trial.

The prosecution named six other-acts

witnesses, including Mersaides Schmit and Angela Lewis.
According to the notice, Schmit would testify about, among other things, a "prior assault
that occurred on January 23, 2014, where defendant Rivera kicked her in the arm that was broken
by him the week before, as well as punched Terry Alber[s] in the head because he was jealous of
their friendship."
Lewis would testify "that on November 26, 2014[,] she was thrown to the ground by
defendant Rivera, which caused an abrasion to her eyebrow area."
The prosecution contended that the other-acts testimony was admissible to show "motive,
intent, scheme, and identity."
Defense counsel opposed the proposed testimony of Schmit and Lewis about assaults
they had suffered themselves, arguing that the evidence was offered for no proper purpose
recognized by People v VanderVliet, but instead only to demonstrate Mr. Rivera's propensity to
commit assaultive crimes. He conceded that Schmit's description of prior assaults by Derek
Rivera against Terry Alber might be admissible.
The judge disagreed and ruled all of the other-acts evidence admissible. With respect to
Schmit's testimony, he reasoned that the assault against her was part of the assault against Alber,
and that "[y]ou can't explain part of the event without all the event."
On November 16, 2014, Angela Lewis was at a motel with Derek Rivera, "playing
around." He painted her face with clown makeup. They were drinking, and he was "very drunk."
They argued. She tried to call the police. He knocked her down, knocked the phone out of her
hand, and started hitting her on the chest. She grabbed vodka Derek was drinking and ran
outside with it. He chased her, knocked her down, and started banging her head against the

7

sidewalk.
After Derek left she called the police. A police officer took a photo of her, still in the
clown makeup and with blood running down her face. The photo was admitted in evidence.
Mersaides Schmit testified that she was a friend of both Derek Rivera and Terry Alber.
Her friendship with Terry caused Derek to be jealous. On January 23, 2014, she and Terry and
Derek were drinking at a friend's apartment when Terry asked if she was all right. She answered
"Yes." This exchange made Derek, who was already drunk, really angry. She was wearing a cast
on her arm, which had been broken. He stomped on the cast until the cast broke off her arm. He
then started to bang her head on countertops and stomp on her head with the heavy boots he was
wearing.
The trial prosecutor asked her if it were fair to say "you were almost dead." She
answered, "Correct. I felt like I had blood clots in my brain kind of like tumors or something
because I had knots in the side of my head right here after the incident happened
The assault ended when Terry intervened. He and Derek ran into the bedroom and "Derek
started beating on Terry, slamming his head, punching him numerous times." Derek ended up
under arrest and in jail.
Mersaides Schmit had seen Derek beat Terry once before. The three of them were
homeless, and at the time slept on a frail under a bridge in Saginaw. Terry received money once a
month, and on the day in question he had some in his pocket. The three of them were laying
down, under the bridge, when Derek began to "assaultQ Terry with his feet and his fists just to
get Terry's money out of his pocket." The assault lasted for what seemed like ten or fifteen
minutes. She saw Derek punch and kick Terry in the face until Terry's nose and gums were
bleeding. Derek was wearing the same heavy boots.

8

Ronald Noeker remembered nothing about the day or night of May 3, 2014, when Terry
Alber died. He woke up the next morning with a bloody nose and blood on his sweatshirt and no
memory of what happened. He did remember a time, a long time before, when
Derek Rivera had kicked him in the face. The police had been called, and he'd been taken to the
hospital.
Derek Rivera was "sometimes" violent when angry. Noeker might have told police Derek
had assaulted him twice, when drunk.
During his final jury instructions the judge gave an instruction in which he limited
consideration of the other-acts to two purposes: whether Derek Rivera "had a reason to commit
the crime," or whether he "specifically meant to commit the crime":

You've heard some evidence that was introduced to show
that the Defendant committed improper acts for which he is not on
trial. If you believe this evidence, you must be very careful only to
consider it for certain purposes. You may only think about whether
this evidence tends to show that the Defendant had a reason to
commit the crime or that—and— and/or that the Defendant
specifically meant to commit the crime. You must not consider this
evidence for other purposes.
For example, you must not decide that it shows this
Defendant to be a bad person or that he is likely to commit crimes.
You must not convict the Defendant here because you think he is
guilty of other bad conduct. All the evidence must convince you
beyond a reasonable doubt that he committed the alleged crime or
you must find him not guilty.

Petitioner Derek Aaron Rivera seeks certiorari in this Court for the following reasons.

9

REASONS FOR GRANTING THE WRIT

I.

MR. RIVERA WAS DENIED A FAIR TRIAL BY OTHER-ACTS
EVIDENCE THAT HAD NO PROPER PURPOSE AND THUS
ENCOURAGED THE JURY TO CONVICT HIM ON AN
IMPROPER CHARACTER-TO-CONDUCT RATIONALE.

Over defense objection, the Trial Court permitted the prosecution to present graphic
evidence of Derek Rivera’s violent assaults against two women not named as victims in this case
on trial. He did so, as he would later instruct the jury, to shed light on two issues: motive and
intent. Because other acts evidence did little to illuminate those issues but much to prejudice the
jury, the evidence should have been excluded. Because the case was otherwise close, the experts
were split on the causation issue-error was likely outcome determinative.
Mr. Rivera argues that the decision of the trial court violated his right to a fundamentally
fair trial as guaranteed by the Fifth Amendment right to due process of law. Ege v. Yukins, 485
F.3d 364(6th Cir. 2007).
As mentioned above, there was no proper purpose for the testimony of these two women,
as the alleged conduct did not give rise to any criminal charges, nor did any victim actually
report the assaults/threats.
Mr. Rivera is aware of this courts holding in Estelle v. McGuire, 502 U.S. 62 (1991),
which held that issues of regarding the violation of a state law are not cognizable on habeas
review.

Mr. Rivera insists, however, that this case and the facts arising from it are

distinguishable from Estelle, in that a due process violation exists because the facts doesn’t
match the character-to-conduct rationale.
For these reasons, Mr. Rivera prays that this Honorable Court will grant certiorari and/or

10

remand this case to the Sixth Circuit Court of Appeals.

II.

THE TRIAL JUDGE COMMITTED PLAIN ERROR BY
REQUIRING THE DEFENSE EXPERT TO PREPARE A REPORT
AS A PRECONDITION TO TESTIFYING.
IN THE
ALTERNATIVE, TRIAL COUNSEL WAS INEFFECTIVE FOR
NOT MAKING A TIMELY OBJECTION.

The prosecution and defense experts disagreed about where Derek Rivera’s conduct
caused Terry Alber’s death. The defense expert, Dr. Horowitz, was a last minute substitute for
the preferred defense expert, Dr. Dragovic. As a precondition for Dr. Horowitz’s testimony,
Judge Collette required him to prepare a report and provide it to the prosecution. The doctor did
so in necessary haste. The prosecution seized on the perceived inadequacies in the report as
reason to reject Dr. Horowitz’s causation testimony in favor of the prosecution expert’s. In the
alternative, counsel was ineffective for not registering a timely objection. Counsel performed
deficiently when he failed to protest the judge’s misunderstanding of the court rules, thus placing
his client at risk that the prosecution would take advantage of the hastily prepared report. Nor
can counsel failure be explained as trial strategy. Counsel himself made clear that the judge’s
decision was wrong and protested it, though belatedly. He did not have a strategic reason not to
object.

It is also reasonably probable that had counsel objected and thereby prevented the

prosecutions attack on his expert’s hastily prepared report, the trial’s outcome would have been
different.
A claim of ineffective assistance of counsel is reviewed under the two-part Strickland test
described in Strickland v Washington, 466 US 668; 104 S Ct 2052; 80 L Ed 2d 674 (1984). The
test requires a showing (1) that counsel’s performance fell below an objective standard of

11

reasonableness and (2) there is a reasonable probability that, but for counsel’s deficient
performance, the result of the proceedings would have been different.
Judge Collette plainly erred by requiring Dr. Horowitz to prepare a report as a
precondition to his testimony. MCR 6.201 governs discovery in criminal cases. Rule 6.201 's
plain language does not require an expert to prepare a report as a precondition to testifying.
Instead, it requires only that "upon request," a party must provide "the curriculum vitae of an
expert the party may call at trial and either a report by the expert or a written description of the
substance of the proposed testimony of the expert, the expert's opinion, and the underlying basis
of that opinion[.]" MCR 6.201(A)(3) (emphasis added). The judge thus plainly erred in two
ways: first, by requiring the defense to prepare a report in the absence of a prosecution request
for one, and second (assuming the prosecution did at some point ask), not allowing the defense to
comply with the court rule by offering a written description of the proposed testimony in lieu of a
report.
The first prong is met. Counsel performed deficiently when he failed to protest the
judge's misunderstanding of the court rules, thus placing his client at risk that the prosecution
would take advantage of hastily prepared report. Nor can counsel's failure be explained away as
trial strategy. Counsel himself made clear that he thought the judge's decision was wrong and
protested it, though belatedly. He did not have a strategic reason not to object.
For the reasons already given, the second prong is also met. It is reasonably probable that
had counsel objected and thereby prevented the prosecution's attack on his expert's hastily
prepared report, the trial's outcome would have been different.

III.

PETITIONER WAS DENIED HIS FOURTEENTH AMENDMENT
RIGHT TO DUE PROCESS OF LAW WHEN THERE WAS
INSUFFICIENT EVIDENCE TO SUPPORT THE ESSENTIAL
12

ELEMENTS OF SECOND-DEGREE MURDER BEYOND A
REASONABLE DOUBT, AND THE TRIAL COURT ABUSED ITS
DISCRETION BY NOT GRANTING APPELLANT’S MOTION
FOR A DIRECTED VERDICT BASED ON THIS ISSUE.

Petitioner asserts that there is insufficient evidence to prove guilt beyond a reasonable
doubt for second degree murder. Specifically, Petitioner states the jury convicted him based on
improperly admitted prior bad acts, as oppose to clear evidence to support each of the essential
elements of second-degree murder. None of the witnesses testified to seeing the Petitioner stomp
the victim or hit [him] with a golf club. The Trial court in denying a motion for a directed
verdict relied on this non-evidence, which constitutes a violation of Petitioner’s due process
rights to a fair trial.
A claim that there was insufficient evidence for a conviction is cognizable on habeas
corpus review. Jackson v. Virginia, 443 U.S. 307 (1979). The inquiry, viewed in the light most
favorable to the prosecution, is whether any rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt. Scott v. Mitchell, 209 F.3d 854 (6th Cir. 2000).
The reasonableness of the state court’s determination of the Jackson standard “must be applied
‘with explicit reference to the substantive elements of the criminal offense as defined by state
law.” Brown v. Palmer, 358 F. Supp. 2d. 648 (E.D. Mich. 2005) (quoting Adams v. Smith, 280 F.
Supp. 2d. 704, 714 (E.D. Mich. 2003)).
In Dretke v. Haley, 541 U.S. 386, 395; 124 S. Ct. 1847; 158 L. Ed. 2d 659 (2004), citing
In re Winship, 397 U.S. 358; 90 S. Ct. 1068; 25 L Ed 2d 368 (1970), in which we held that due
process required proof of each element of a criminal offense beyond a reasonable doubt.
Habeas relief can only be granted on the basis of insufficient evidence where the federal
court conducts a thorough review of the full state court trial transcript. Nash v. Eberlin, 437 F.3d

13

519 (6th Cir. 2006) (reversing the district court’s decision to grant habeas relief where no
transcripts were included in the state court record).
There were several witnesses that testified that Mr. Rivera and Terry Alber (deceased)
were fist fighting at eight or ten o’clock on May 3rd, and the police responded to the scene just
before 11:00am on the 4th of May. The trial court denied the motion and went on to say, “Your
client viciously, violently, and pretty much without any provocation attached this gentlemen,
hitting him, stomping him, kicking him in a violent, vicious attack and then hitting him with a
golf club. Come on. What in the world am I if I don’t think this constitutes murder? And I do
believe there is plenty of provocation shown here. Past acts. Everything else. This guy is a
violent man. It’s terrible.”
The trial court erroneously commented on facts not in the record. There was no evidence
that Petitioner hit Mr. Alber with a gold club, or stomping him. To the contrary, Arthur Devine
testified that after the fist fight happened, Mr. Alber went outside the hut and drank for a couple
more hours. There was no evidence to support the notion that Mr. Rivera viciously attacked Mr.
Alber resulting in his death.

IV.

DEFENSE COUNSEL WAS INEFFECTIVE FOR NOT WAITING
UNTIL AFTER DR. HOROWITZ TESTIFIED BEFORE ASKING
FOR THE DIRECTED VERDICT.

Petitioner states that it was not a “sound trial strategy” for defense counsel to prematurely
request a motion for a directed verdict prior to the testimony of Dr. Horowitz. This alleged
strategy substantially prejudiced the Petitioner’s trial because the prosecution was able to present
rebuttal arguments to the jury regarding Dr. Horowitz’ testimony. Petitioner further states that
defense counsel introduced prejudice into the jury when [he] informed the Court of Petitioner’s

14

option not to testify. Again, this does not amount to sound trial strategy as the Court will instruct
the jury after closing arguments regarding Petitioner’s right to remain silent. Lastly, defense
counsel was ineffective for failing to sequester the witnesses. All of the prosecution’s witnesses
were able to sit-in on the proceedings and able to hear one another’s testimony. This unfairly
prejudiced the Petitioner and violated his right to a fair trial.
As provided in Argument II above, and following the test set forth in Strickland v.
Washington, defense counsel’s performance was deficient and it resulted in an outcome that
could have been different if it weren’t for counsel’s ineffectiveness.
It should also be noted that defense counsel was ineffective for not having the witnesses
sequestered in this case. The witnesses should not have been allowed in the courtroom while
other witnesses were testifying.
Lastly, defense counsel was ineffective for advising Mr. Rivera not to testify. The right to
testify has sources in both the State and Federal Constitutions which are of a fundamental
magnitude. Rock v. Arkansas, 486 U.S. 44; 107 S. Ct. 2704; 97 L. Ed. 2d 37 (1987). Defense
counsel erroneously advised Mr. Rivera not to testify under the grounds that the prosecution
could impeach him with this criminal past, when said past was used against him anyway,
therefore, this “strategy”, albeit a bad one, cannot amount to a sound trial strategy.

This Court should grant certiorari or reverse the Sixth Circuit’s February 12, 2021,
decision denying Petitioner a certificate of appealability.

15

SUMMARY and CONCLUSION
There was no evidence in this case to support a conviction of murder. Mr. Rivera and the
decedent Terry Alber were friends, they lived together, drank together, and at times, the drinking
would lead to petty fist fights that were often resolved over more drinking. The prosecutions
attempt to gain a conviction by means that violated Mr. Rivera’s fundamental rights to a fair trial
are apparent in the alleged other-acts evidence. While Defense Counsel was apprised of the
other-acts evidence, such evidence was so far-fetched that no reasonable attorney using sound
professional judgment could defend against other-acts evidence, because the evidence pertains to
Mr. Rivera’s alleged uncharged criminal behavior in unrelated incidents. For the reasons stated
above, Petitioner Derek A. Rivera, asks this Honorable Court to GRANT certiorari or REVERSE
the Sixth Circuit Court of Appeals’ February 12, 2021, Order denying certificate of appealability.
Respectfully submitted,

£)^jdlb
Date:

Apri j 12>

Derek A. Rivera, #967132

.,2021

16

